     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services, Region I
                                                                          John F. Kennedy Federal Building
                                                                          Room 2425
                                                                          Boston, MA 02203
September 21, 2011

Report Number: A-01-11-00523

Ms. Sandy Coston
Chief Executive Officer and President
First Coast Service Options, Inc.
532 Riverside Avenue 20 Tower
Jacksonville, FL 32202

Dear Ms. Coston:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Outpatient Claims Processed by First Coast
Service Options, Inc., That Included Procedures for the Insertion of Multiple Units of the Same
Type of Medical Device in Calendar Years 2008 and 2009. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Kimberly Rapoza, Audit Manager, at (617) 565-2695 or through email at
Kimberly.Rapoza@oig.hhs.gov. Please refer to report number A-01-11-00523 in all
correspondence.

                                             Sincerely,



                                             /Michael Armstrong/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Sandy Coston

Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL



   REVIEW OF OUTPATIENT CLAIMS
 PROCESSED BY FIRST COAST SERVICE
   OPTIONS, INC., THAT INCLUDED
 PROCEDURES FOR THE INSERTION OF
MULTIPLE UNITS OF THE SAME TYPE OF
MEDICAL DEVICE IN CALENDAR YEARS
          2008 AND 2009




                         Daniel R. Levinson
                          Inspector General

                          September 2011
                           A-01-11-00523
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                               EXECUTIVE SUMMARY

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare
program. CMS employs Medicare contractors, including First Coast Service Options,
Inc. (First Coast), to process and pay hospital outpatient claims using the Fiscal
Intermediary Shared System (FISS).

CMS implemented an outpatient prospective payment system (OPPS) for hospital
outpatient services. Under the OPPS, Medicare pays for hospital outpatient services on a
rate-per-service basis that varies according to the assigned ambulatory payment
classification group. Under the OPPS, outlier payments are available when exceptionally
costly services exceed established thresholds.

Medical Devices

Common medical devices implanted during outpatient procedures include cardiac
devices, joint replacement devices, and infusion pumps. Generally, a provider implants
only one cardiac device during an outpatient surgical procedure. Under the OPPS,
payments to hospitals for medical devices are “packaged” into the payments for the
procedures to insert devices. Hospitals are required to report the number of device units
and related charges accurately on their claims. The failure to report device units and
related charges accurately could result in incorrect outlier payments.

Our audit covered $35,165 in Medicare outlier payments to hospitals for 18 claims for
outpatient procedures that included the insertion of more than 1 of the same type of
medical device. The 18 claims had dates of service during calendar years (CY) 2008 and
2009.

OBJECTIVE

Our objective was to determine whether Medicare paid hospitals correctly for outpatient
claims processed by First Coast that included procedures for the insertion of multiple
units of the same type of medical device.

SUMMARY OF FINDINGS

Of the 18 claims that we reviewed, Medicare paid 13 correctly for outpatient claims
processed by First Coast that included procedures for the insertion of multiple units of the
same type of medical device. However, for the remaining five claims, Medicare did not
pay hospitals correctly. These incorrect payments were due to hospitals overstating the
number of units and related charges, resulting in excessive or unwarranted outlier
payments.

For the five claims, First Coast made overpayments to hospitals totaling $17,067.

                                             i
Incorrect payments occurred because hospitals had inadequate controls to ensure that
they billed accurately for claims that included the insertion of medical devices. In
addition, Medicare payment controls in the FISS were not always adequate to prevent or
detect incorrect payments.

RECOMMENDATIONS

We recommend that First Coast:

   •   recover the $17,067 in overpayments for five inaccurate claims,

   •   continue to alert hospitals of the importance of coding outpatient claims with the
       correct number of medical device units, and

   •   work with CMS to strengthen FISS prepayment edits by revising the unit amount
       thresholds for certain medical devices.

FIRST COAST SERVICE OPTIONS, INC., COMMENTS

In written comments on our draft report, First Coast agreed with our recommendations
and described its corrective actions. First Coast’s comments are included in their entirety
as the Appendix.




                                             ii
                                             TABLE OF CONTENTS
                                                                                                                               Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
             Hospital Outpatient Prospective Payment System ............................................1
             Medical Devices................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
              Objective ...........................................................................................................2
              Scope .................................................................................................................2
              Methodology .....................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          PROGRAM REQUIREMENTS ................................................................................3

          PAYMENTS BASED ON CLAIMS BILLED INCORRECTLY .............................4

          CAUSES OF INCORRECT PAYMENTS ................................................................4
               Inadequate Controls at Hospitals ...................................................................4
               Inadequate Medicare Payment Controls ........................................................4

          RECOMMENDATIONS ...........................................................................................4

          FIRST COAST SERVICE OPTIONS, INC., COMMENTS ....................................5

APPENDIX

          FIRST COAST SERVICE OPTIONS, INC., COMMENTS




                                                               iii
                                   INTRODUCTION

BACKGROUND

The Medicare program, established by Title XVIII of the Social Security Act (the Act),
provides health insurance coverage to people aged 65 and over, people with disabilities,
and people with end-stage renal disease. The Centers for Medicare & Medicaid Services
(CMS) administers the Medicare program. Part B of Title XVIII provides supplementary
medical insurance for medical and other health services, including the coverage of
hospital outpatient services.

CMS contracted with First Coast Service Options, Inc. (First Coast), to, among other
things, process and pay claims submitted by hospital outpatient departments. First Coast
uses the Fiscal Intermediary Shared System (FISS) for processing hospital claims. First
Coast processes claims for Florida, Puerto Rico, and the U.S. Virgin Islands.

Hospital Outpatient Prospective Payment System

As mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, together with the
Medicare, Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced
Budget Refinement Act of 1999, P.L. No. 106-113, CMS implemented an outpatient
prospective payment system (OPPS) for hospital outpatient services. The OPPS was
effective for services furnished on or after August 1, 2000. Under the OPPS, Medicare
pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). All services and items within an
APC group are comparable clinically and require comparable resources. Under the
OPPS, outlier payments are available when exceptionally costly services exceed
established thresholds.

Medical Devices

Common medical devices implanted during outpatient procedures include cardiac
devices, joint replacement, and infusion pumps. Generally, a provider implants only one
cardiac device, such as a pacemaker or implantable cardioverter defibrillator, during an
outpatient surgical procedure.

Under the OPPS, payments to hospitals for medical devices are “packaged” into the
payments for the procedures to insert devices. Although separate payments are not made
for devices, hospitals are required to report the number of device units and related
charges accurately on their claims. The failure to report device units and related charges
accurately could result in incorrect outlier payments.




                                             1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Medicare paid hospitals correctly for outpatient
claims processed by First Coast that included procedures for the insertion of multiple
units of the same type of medical device.

Scope

Our audit covered $35,165 in Medicare outlier payments to hospitals for 18 claims for
outpatient procedures that included the insertion of more than 1 of the same type of
medical device. The 18 claims had dates of service during calendar years (CY) 2008
and 2009.

Our objective did not require an understanding or assessment of the complete internal
control structures of the hospitals or First Coast. Therefore, we limited our review at
hospitals to the controls related to preparing and submitting Medicare claims for
procedures that included the insertion of selected medical devices. We limited our
review at First Coast to the controls related to preventing or detecting Medicare
overpayments to hospitals for outpatient claims with overstated medical device units.

Our fieldwork included contacting First Coast and the 10 hospitals that submitted the 18
claims in our review. We conducted our fieldwork from September 2010 through
February 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    extracted hospitals’ outpatient paid claim data from CMS’s National Claims
        History file for CYs 2008 and 2009;

   •    developed computer applications to identify outpatient claims processed by First
        Coast that included procedures for the insertion of multiple units of the same type
        of medical device and identified 18 claims to review;

   •    reviewed the hospitals’ itemized bills for 18 claims and selected beneficiaries’
        medical records to determine whether the hospitals submitted claims with the
        correct device units and associated charges;

   •    reviewed CMS’s Common Working File claims history for the 18 claims to
        validate the results of our computer match and to verify that the selected claims
        had not been canceled;

                                             2
   •   contacted representatives of the 10 hospitals that submitted the claims to verify
       whether the claims were correctly billed and to determine the causes of
       noncompliance with Medicare billing requirements;

   •   contacted First Coast to obtain an understanding of edits in the FISS and other
       controls intended to prevent or detect overpayments to hospitals;

   •   calculated the correct payments for claims that needed payment adjustments; and

   •   discussed the results of our review with First Coast.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.

                      FINDINGS AND RECOMMENDATIONS

Of the 18 claims that we reviewed, Medicare paid 13 correctly for outpatient claims
processed by First Coast that included procedures for the insertion of multiple units of the
same type of medical device. However, for the remaining five claims, Medicare did not
pay hospitals correctly. These incorrect payments were due to hospitals overstating the
number of units and related charges, resulting in excessive or unwarranted outlier
payments.

For the five claims, First Coast made overpayments to hospitals totaling $17,067.
Incorrect payments occurred because hospitals had inadequate controls to ensure that
they billed accurately for claims that included the insertion of medical devices. In
addition, Medicare payment controls in the FISS were not always adequate to prevent or
detect incorrect payments.

PROGRAM REQUIREMENTS

Section 1862(a)(1)(A) of the Act states no payment may be made under Part A or Part B
for any expenses incurred for items or services that are not reasonable and necessary for
the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member.

The Medicare Claims Processing Manual, Pub. No. 100-04, chapter 1, section 80.3.2.2,
requires that claims be completed accurately to be processed correctly and promptly.
Federal regulations (42 CFR Section 419.43(d)) provide for outlier payments for hospital
outpatient services, in addition to the prospective payment, when a hospital’s charges
exceed certain thresholds.



                                             3
PAYMENTS BASED ON CLAIMS BILLED INCORRECTLY

Hospitals incorrectly billed medical device units for 5 of the 18 claims. These billing
errors led to overstated charges, resulting in excessive or unwarranted outlier payments
for five claims totaling $17,067.

                        An Example of Incorrectly Billed Units

       One hospital billed for two automatic implantable cardioverter defibrillator
       (AICD) units with charges that totaled $279,917. However, the hospital should
       have billed for one AICD unit with charges of $139,958. The additional charges
       for the second AICD unit resulted in an unwarranted outlier payment of $11,166
       to the hospital.


CAUSES OF INCORRECT PAYMENTS

Inadequate Controls at Hospitals

The five hospitals that received incorrect payments had not established the necessary
controls to ensure that they billed the correct device units for outpatient claims processed
by First Coast that included procedures for the insertion of medical devices. Officials of
these hospitals stated that their billing personnel had billed units incorrectly for one or
both of the following reasons:

   •   Personnel made isolated data entry errors.

   •   Undetected flaws in the design or implementation of some billing systems caused
       some claims to be submitted with multiple medical device units.

Inadequate Medicare Payment Controls

Medicare payment controls were not always adequate to prevent or detect incorrect
payments. Specifically, CMS established, as part of its FISS prepayment controls, unit
amount thresholds for medically unlikely edits that are too high for certain medical
devices (e.g., currently, there is a two-unit threshold for pacemakers).

RECOMMENDATIONS

We recommend that First Coast:

   •   recover the $17,067 in overpayments for five inaccurate claims,

   •   continue to alert hospitals of the importance of coding outpatient claims with the
       correct number of medical device units, and


                                             4
   •   work with CMS to strengthen FISS prepayment edits by revising the unit amount
       thresholds for certain medical devices.

FIRST COAST SERVICE OPTIONS, INC., COMMENTS

In written comments on our draft report, First Coast agreed with our recommendations
and described its corrective actions. First Coast’s comments are included in their entirety
as the Appendix.




                                             5
APPENDIX
             APPENDIX: FIRST COAST SERVICE OPTIONS, INC., COMMENTS
                                                                                           Page 1 of 2



 SERVICE OPTIONS, INC.
 WHEN EXPERIENCE COUNTS & QUALITY MAmRS



                                                                                           Sandy Coston
                                                                                         CEO & President
                                                                              First Coast Service Options, Inc.
                                                                                     Sandy. Coston @fcso.com


September 9, 2011


Mr. Michael J. Armstrong
Regional Inspector General for Audit Services
Office of Audit Services, Region I, Room 2425
Boston, MA 02203

Reference: A-01-11-00S23

Dear Mr. Armstrong:

We received the U.S. Department of Health & Human Services, Office of Inspector General (OIG) draft
report entitled, "Review of Outpatient Claims Processed by First Coast Service Options, Inc. That
Included Procedures for the Insertion of Multiple Units of the Same Type of Medical Device in Calendar
Years 2008 and 2009" and reviewed the findings and recommendations. We appreciate the
opportunity to review and provide comments prior to release of the final report.

In the draft report, you outlined three recommendations that we have addressed as follows:

Recommendation:
   Recove r the $17,067 in overpayments for 5 inaccurate claims.

Response:
   First Coast Service Options, Inc. (FCSO) has initiated its standard overpayment recovery procedures
  to recover the claims identified by the OIG.


Recommendation:
  Continue to alert hospitals of the importance of coding outpatient claims with the correct number of
   medical device units.

Response:
   FCSO will incorporate examples of billing errors found in this report in future education efforts. An
   analysis of the results will be completed to determine if provider specific education and/or
  widespread education is more appropriate. Educational efforts will include a particular emphasis on
   units of service issues that led to claims being reimbursed at excessive payment amounts.




532 Riverside Avenue, Jacksonville, Florida 32202
P.O. Box 45274, Jacksonville, Florida 32234-5274
Tel: 904-791-8409
Fax: 904-361-0372
www.fcso.com
Mr. Michael J. Armstrong                                                         Page 2 of 2
September 9,2011
Page 2


Recommendation:
   Work with CMS to strengthen FISS prepayment edits by revising the unit amount thresholds for
   certain medical devices.

Response:
       The claims processed by FCSO for which the OIG identified incorrect billing of units for
       certain medical devices involved pacemaker, AICD and implantable infusion pumps.
       CMS' national Medically Unbelievable Edit (MUE) program administered through the
       National Correct Coding Initiative (NCCI) process currently has the unit billed threshold
       set at two units for these medical devices. FCSO will reach out to CMS and the NCCI
       contractor to determine if the unit billed threshold for these devices should be re­
       evaluated.


Again, we appreciate the opportunity to review and provide comments prior to release of the
final report. If you have any questions regarding our responses, please contact Mr. Gregory
W. England at (904) 791-8364.



Sincerely,

 ;1M~~C6~
Sandy Coston


cc: Gregory W. England




                                   First Coast Service Options, Inc.
